                                                                                              I
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM




         performed work and used NSF-funded equipment and supplies in support of his privatd
         company.5 The complainantll also alleged that when she brought the allegation to the dniversity,
         the allegations became known by a universty staff member" who then became verball! abusive
         and sent several emails deterimental to the complainant's reputation, thus hampering th&
         subject's ability to perform the work associated with the award. Initially, the universib did
         nothing to protect the award.




          forward with a prosecution.



          complainant have ceased. Accordingly, this case is closed.




NSF 01G Form 2 (1 1/02)
